APPENDIX
APPENDIX CONTENTS
Opinion of the United States Court of Appeals
for the Eleventh Circuit, Clay and Osceola v.
Commissioner, 990 F.3d 1296 (2021) ……….……1a
Opinion of the United States Tax Court, Clay
and Osceola v. Commissioner, 152 T.C. 223
(2019)…………………………...…………………....12a
25 U.S.C. § 2 ……………………………………………50a
25 U.S.C. §2701 ……………………………….………..51a
25 C.F.R. §162.013 …………………………………….52a
25 C.F.R. §162.016 …………………………………….54a
25 C.F.R. §162.018 …………………………………….55a
25 C.F.R. §162.402 …………………………………….56a
25 C.F.R. §162.420 …………………………………….57a
25 C.F.R. §290.2…. …………………………………….58a
Internal Revenue Manual, § 4.88.1.4.1 ………...…..61a

1a
UNITED STATES COURT OF APPEALS,
FOR THE ELVENTH CIRCUIT
________________________
James CLAY, Audrey Osceola, PetitionersAppellants,
v.
COMMISSIONER OF INTERNAL REVENUE,
Respondent-Appellee.
No. 19-14441
Submitted: 12/17/2020
Filed: March 16, 2021
Before WILSON, GRANT, and TJOFLAT, Circuit
Judges.
1. Opinion
GRANT, Circuit Judge:
In the late 1980s, the Miccosukee Tribe decided to build
a casino in Florida. Acres of land between Miami and
the Everglades now host a hotel, a concert hall, a food
court, a restaurant, and a gift shop. And, of course,
gaming. The casino's profits skyrocketed, and the Tribe
chose to share those profits with its members. During
the years relevant to this case, each tribe member—
man, woman, and child—received large payments,
starting at almost $100,000 annually and climbing to
nearly $160,000.
But the Tribe did more than just write the checks; it
also encouraged members to hide their payments from
the IRS. The taxpayers here followed the Tribe's

2a
advice, and they are now subject to hundreds of
thousands of dollars in tax deficiencies. They offer
various reasons why they do not owe taxes on these
payments. One assertion is that any taxes are barred
by a statute that exempted an earlier land transfer
from taxation; another is that the payments are merely
non-taxable lease payments from the casino.
Unfortunately for these Tribe members, the payments
are just income—taxable income. That means we
affirm.
I.
The Miccosukee Tribe of Indians of Florida is a
federally recognized American Indian tribe under the
Indian Reorganization Act of 1934. See Pub. L. No. 73383, 48 Stat. 984. James Clay and Audrey Osceola, a
married couple with five children at home, are enrolled
members of the Tribe. And that enrollment can have
financial benefits. For example, starting in 1984 the
Tribe collected a small sales tax on goods sold by tribal
businesses on its land. The Tribe used those revenues
to fund its day-to-day operations, and also to make
quarterly distributions to its enrolled members. Those
early distributions weren't much, though; they
typically amounted to no more than $100 per quarter
for each member.
Things began to change in 1988. That year, Congress
enacted the Indian Gaming Regulatory Act. See Pub. L.
No. 100-497, 102 Stat. 2467 (1988) (codified at 25
U.S.C. § 2701 et seq.). The Gaming Act authorized
tribes to engage in various gaming activities—lotteries,
bingo, poker, and so on. See 25 U.S.C. §§
2703(7)(A), 2710(b)(1). So the following year the Tribe
decided to enter the gaming business and struck a deal

3a
with an outside company to “construct, manage and
operate a Class II gaming facility for the Tribe.”1 To
that end, the company purchased land near the Tribe's
reservation—land which was eventually placed in trust
for the Tribe—and went about building the casino
there. But relations between the Tribe and company
quickly soured, and the Tribe took over full
management of the casino in 1993.
Once the casino proved to be profitable, the Tribe
started imposing a gross receipts tax on “all amounts”
received by the casino, including admission fees,
wagers, and revenues from its gift shop and other
activities. The Tribe's chairman instructed its finance
director to open a checking account to hold the proceeds
from the gross receipts tax. Like it had done with its
sales tax, the Tribe used those funds to make quarterly
distributions and other payments to its members. At
the end of every quarter, the Tribe calculated the
amount it received in gross receipts taxes and then
allocated an equal share to each member. Distributions
for minor children were typically given to their
mothers.
But the Tribe's involvement ran deeper than just
handing out the money. For years, the Tribe's
leadership also urged members not to report the
payments on their tax returns. The Tribe even
encouraged members to cash their checks at its
The Gaming Act “divides Indian gaming into three categories:
class I, class II, and class III.” Tamiami Partners, Ltd. v.
Miccosukee Tribe of Indians of Fla., 63 F.3d 1030, 1032 n.3 (11th
Cir. 1995). Class II gaming covers bingo and includes “pull-tabs,
lotto, punch boards, tip jars, instant bingo, and other games
similar to bingo.” 25 U.S.C. § 2703(7)(A). It can also include some
types of card games. Id.
1

4a
administration office rather than at banks; according
to the Tribe's chairman, cashing the checks at banks
“would likely result in a report being made to the IRS.”
Going even further, the Tribe's chairman told members
“not to list the quarterly distributions on credit
applications or when applying for food stamps,
Medicare, or Medicaid.” As he put it, that would
frustrate the Tribe's efforts to “protect tribal members
from facing problems with [the] IRS.” The chairman
also warned that if the IRS found out about the cash, it
may “investigate how the money was obtained.”
It turns out he was right. Despite the chairman's best
efforts, the IRS caught wind of the payments. In 2010,
it “audited dozens of returns filed by members of the
Tribe,” including Clay and Osceola's. The next year, the
IRS issued Clay and Osceola a notice of deficiency for
the 2004 and 2005 tax years. And two years later, it
issued them another notice of deficiency for 2006. The
notices for those years informed them that they were
liable for yearly income tax deficiencies of roughly
$192,000, $310,000, and $389,000. The notices also
stated that Clay and Osceola were subject to accuracyrelated penalties under 26 U.S.C. § 6662(a).
Clay and Osceola challenged the deficiency findings
and penalties in both notices in the tax court. They had
partial success—the tax court issued a 45-page opinion
sustaining the deficiency determinations, but rejecting
the accuracy-related penalties. They appealed.
II.
We review the tax court's legal conclusions de
novo. Ocmulgee Fields, Inc. v. Comm'r, 613 F.3d 1360,
1364 (11th Cir. 2010). But we review its factual
findings for clear error. Id.

5a
III.
The Internal Revenue Code casts a wide net. For
starters, it applies to everyone, including American
Indians. See Squire v. Capoeman, 351 U.S. 1, 6, 76
S.Ct. 611, 100 L.Ed. 883 (1956). It also applies to
everything—at least, everything that makes up one's
“gross income.” 26 U.S.C. § 61(a). And the definition of
gross income “sweeps broadly,” including “all income
from whatever source derived.” United States v. Burke,
504 U.S. 229, 233, 112 S.Ct. 1867, 119 L.Ed.2d 34
(1992) (quoting 26 U.S.C. § 61(a)). Unless there is a
specific exemption, all gains are subject to
taxation. See Comm'r v. Glenshaw Glass Co., 348 U.S.
426, 430, 75 S.Ct. 473, 99 L.Ed. 483 (1955).
5Here, Clay and Osceola do not dispute that their per
capita payments qualify as “gross income” under the
Code. It is not hard to see why. For one thing, the very
statute that allows tribes to run class II gaming
activities—the Gaming Act—also says that any “per
capita payments” made from those activities must be
“subject
to
Federal
taxation.” 25
U.S.C.
§
2710(b)(3); see also United States v. Jim, 891 F.3d
1242, 1244–45 (11th Cir. 2018).2

We reject any contention that the payments do not come from
“net revenues” simply because the Tribe taxes the casino's “gross
receipts” instead. In United States v. Jim, we declined to “place
form over substance in analyzing the taxability” of these
distributions. 891 F.3d at 1250 n.17. We now do so yet again and
reiterate that the Gaming Act “subjects to federal taxation the per
capita payments an Indian tribe makes to its members from
gaming revenue, no matter the mechanisms devised to collect the
revenue or administer the payments.” Id. We also reiterate that
even if the payments did not come from “net revenues,” they would
2

6a
So Clay and Osceola are left to argue that Congress
exempted their payments from taxation. The problem
for them is that any tax exemption must be “clearly
expressed.” Capoeman, 351 U.S. at 6, 76 S.Ct. 611.
Absent “clear statutory guidance” we “ordinarily will
not imply tax exemptions.” Mescalero Apache Tribe v.
Jones, 411 U.S. 145, 156, 93 S.Ct. 1267, 36 L.Ed.2d 114
(1973). Even so, Clay and Osceola contend that
Congress provided them with two qualifying
exemptions. First, they point to the Miccosukee
Settlement Act of 1997. See Pub. L. No. 105-83, 111
Stat. 1624 (codified at 25 U.S.C. § 1750 et
seq. (2006)).3 And second, they claim an exemption for
“land lease” payments. Neither of the asserted
exemptions, however, offers relief.
A.
Clay and Osceola first look to the Miccosukee
Settlement Act in their search for a workable
exemption. Congress passed the Settlement Act in
1997, marking the end of a dispute between Florida
and the Tribe. That dispute began in 1991 when
Florida sought to build a highway through Miccosukee
lands. The Tribe sued, and after years of litigation, the
parties reached a settlement agreement. In that
agreement, Florida promised to give the Tribe, among
other things, a six-acre parcel of land and nearly $2.2
million. In exchange, the Tribe agreed to grant the
still be included in gross income absent a “clearly expressed” tax
exemption. Capoeman, 351 U.S. at 6, 76 S.Ct. 611.
Portions of the Settlement Act were codified at 25 U.S.C. §
1750 et seq., but have since been omitted. We therefore cite to the
2006 edition of the U.S. Code throughout this opinion when
referencing the Settlement Act.
3

7a
State the rights-of-way and easements it needed for the
highway project.
Because the settlement agreement “contemplated land
transfers,” it required Congress's blessing. 25 U.S.C. §
1750(4) (2006). And—after finding that the agreement
was “in the interest of the Miccosukee Tribe”—
Congress gave that blessing in the Settlement
Act. Id. § 1750(5). But it also went a step further, and
provided that none of the “moneys paid” or “lands
conveyed” to the Tribe under the Settlement Act or the
agreement would be “taxable under Federal or State
law.” Id. § 1750e(c).
Clay and Osceola hang their hats on this provision,
asserting that it exempts their per capita payments
from taxation. They say that the Settlement Act “could
not be any clearer in exempting the Miccosukee lands
from federal and state taxes.” And they read the Act
broadly—even as empowering the Tribe to collect and
distribute money to its members without the members
including it in “any taxable income determination.” But
Clay and Osceola do not simply offer their own
interpretation of the Settlement Act for our
consideration. They also say that we must adopt that
interpretation for ourselves. In their words, we are
obliged to read it as “the Tribe understood it at the time
of its creation with any ambiguities being interpreted
in favor of the Tribe.”
To be sure, courts construe statutes “liberally” in favor
of American Indians and resolve reasonable
ambiguities to their benefit. Montana v. Blackfeet
Tribe of Indians, 471 U.S. 759, 766, 105 S.Ct. 2399, 85
L.Ed.2d 753 (1985); see also South Carolina v.
Catawba Indian Tribe, Inc., 476 U.S. 498, 506, 106

8a
S.Ct. 2039, 90 L.Ed.2d 490 (1986). But that rule has its
limits. After all, we cannot “ignore plain language” that
“clearly runs counter” to their claims. Oregon Dep't of
Fish & Wildlife v. Klamath Indian Tribe, 473 U.S. 753,
774, 105 S.Ct. 3420, 87 L.Ed.2d 542 (1985); Catawba,
476 U.S. at 506, 106 S.Ct. 2039. Nor can we create
“ambiguities that do not exist.” Catawba, 476 U.S. at
506, 106 S.Ct. 2039.
Yet Clay and Osceola ask us to do just that. Simply put,
the Settlement Act is unambiguous; it exempts from
taxation only the “moneys paid” and “lands conveyed”
to the Tribe “under this part or the Settlement
Agreement.” 25 U.S.C. § 1750e(c) (2006). The scope of
that tax exemption is no mystery. In the Act itself,
Congress notes that the Tribe will receive “monetary
payments” and “new reservation lands” under the
agreement. Id. § 1750(5). In fact, Congress references
those specific lands throughout the Act. See id. §§
1750(6), (7); 1750a(4); 1750c(4); 1750d. With that
context, the language's meaning is clear—it merely
negated the normal tax effects of the money and land
transfers described in the Settlement Act.
That said, even the most generous reading of the
Settlement Act wouldn't help. Say we interpreted the
Act as providing an indefinite tax exemption for the
“lands” conveyed under it or the agreement. The casino
revenues still don't fit the bill. For one thing, the
casino's land was not conveyed under either the
Settlement Act or the agreement. As Clay and Osceola
concede, the casino was built nearly a decade before on
land placed in trust for the Tribe. Moreover, an
exemption for “lands” only exempts income “derived
directly” from those lands. Capoeman, 351 U.S. at 9, 76
S.Ct. 611 (quotation omitted). And this Court has

9a
already held that casino revenues do “not derive
directly from the land.” Jim, 891 F.3d at 1250 n.17.
That means even the reading of the Settlement Act
espoused by Clay and Osceola would not provide the
tax exemption they seek.4
B.
Clay and Osceola argue in the alternative that the
payments are tax exempt because they stem from a
lease for the use of the Tribe's lands. This argument
has both a factual problem and a legal one. First, the
factual problem. The tax court found that there was no
lease agreement, and that finding was not clearly
erroneous. See Ocmulgee Fields, 613 F.3d at 1364.
Indeed, Clay and Osceola have not pointed to anything
in the record even resembling a lease agreement. And
a closer look reveals why: no lease ever existed.
Consider the ordinance that funds the Tribe's per
capita payment scheme. That ordinance says that the
casino “shall be subject to a gross receipts tax”—it
never says anything about a lease. And the casino's
financial statements reinforce that point. Those
At one point, Clay and Osceola contend that the Tribe's chairman
is the Secretary of the Interior's “designated representative,” and
that he was therefore entitled to interpret the Settlement Act as
exempting from taxation “all lands of the Tribe.” Even assuming
the chairman's status as a “designated representative,” we find no
support for his claimed authority to definitively interpret
unambiguous acts of Congress. And the only two provisions they
cite say nothing of the sort. The first is 25 U.S.C. § 2. That
provision just confers on the Commissioner of Indian Affairs
general authority over “Indian affairs.” And the second is a
regulation permitting the Commissioner to “waive or make
exceptions to his regulations” in certain circumstances. 25 C.F.R.
§ 1.2. But of course, the Settlement Act is a statute—not a
regulation.
4

10a
statements specifically confirm that “[n]o rental
payment is currently required for the use of” the Tribe's
land. It is hard to make a case that the payments were
lease payments without a lease.
The second problem is a basic doctrinal one. Tax
exemptions, as we said earlier, must be “clearly
expressed.” Capoeman, 351 U.S. at 6, 76 S.Ct. 611.
That
means
“clear
statutory
guidance”
is
required. Mescalero, 411 U.S. at 156, 93 S.Ct. 1267.
But Clay and Osceola have not identified any statutory
exemption for lease payments. They instead assert that
revenue from the “leasing of undeveloped Tribal lands
has always been considered tax exempt,” and that
development makes no difference for the application of
that rule. They cite a handful of revenue rulings to
support this claim.
Revenue rulings, of course, are not binding
authorities. Batchelor-Robjohns v. United States, 788
F.3d 1280, 1297 (11th Cir. 2015). But even if we were
obligated to follow them, the rulings cited here offer no
aid. To begin, two of the rulings have nothing at all to
do with leases. The first notes that payments to
members of tribal councils for their services are not
“wages” for some purposes. Rev. Rul. 59-354, 1959-2
C.B. 24. The second deals with “lands held in trust by
the United States Government for the Sac and Fox
Indians.” Rev. Rul. 63-244, 1963-2 C.B. 21. And the
others, by contrast, do mention “rentals.” See Rev. Rul.
56-342, 1956-2 C.B. 20; Rev. Rul. 67-284, 1967-2 C.B.
55. But they do so in the context of Squire v. Capoeman,
a Supreme Court decision holding that income “derived
directly” from lands allotted under the General

11a
Allotment Act of 1887 is exempt from taxation.5 351
U.S. at 9, 76 S.Ct. 611 (quotation omitted); Pub. L. No.
49-105, 24 Stat. 388. Capoeman’s holding on that issue
cannot apply here though—Miccosukee lands have
never been allotted, under the General Allotment Act
or otherwise. And again, we have already held that
casino revenues do “not derive directly from the land”
anyway. Jim, 891 F.3d at 1250 n.17. So this argument
misses the mark legally as well as factually.
***
The Miccosukee leadership correctly predicted that its
members would face “problems” with the IRS if the
agency learned of the Tribe's unreported payments.
Because Clay and Osceola have not identified any
applicable tax exemptions, the judgments of the tax
court are AFFIRMED.

The General Allotment Act sought to “allot” tribal lands—that
is, parcel them “into smaller lots owned by individual tribe
members.” McGirt v. Oklahoma, ––– U.S. ––––, 140 S. Ct. 2452,
2463, 207 L.Ed.2d 985 (2020).
5

12a
UNITED STATES TAX COURT
________________________
James CLAY, Audrey Osceola, Petitioners,
v.
COMMISSIONER OF INTERNAL REVENUE,
Respondent.
Nos. 13104-11, 7870-13
Filed: April 24, 2019
Before Hon. Cary Douglas Pugh
1. Opinion
PUSH, Judge:
In notices of deficiency dated March 4, 2011, and
January 10, 2013, respondent determined the following
deficiencies and penalties:1
Year

Deficiency Penalty sec. 6662(a)

2004

$ 192,215

$ 38,443

2005

310,171

62,034

2006

389,613

77,923

After concessions, the issues for decision are whether
quarterly distributions, Christmas bonuses, and a
miscellaneous payment to petitioners are income
under section 61 for tax years 2004 through 2006 and
Unless otherwise indicated, all section references are to the
Internal Revenue Code of 1986, as amended and in effect for the
years in issue. Rule references are to the Tax Court Rules of
Practice and Procedure. All monetary amounts are rounded to the
nearest dollar.
1

13a
whether petitioners are liable for accuracy-related
penalties under section 6662(a) for tax years 2004 and
2005. These consolidated cases are lead cases for a
larger group all with the common legal issue of the tax
treatment of the distributions and Christmas bonuses
(collectively, distributions).2
FINDINGS OF FACT
Some of the facts have been stipulated and are so
found. The stipulated facts are incorporated in our
findings by this reference. Petitioners James Clay and
Audrey Osceola were residents of Florida when they
timely filed their petitions.
I. The Miccosukee Tribe of Indians of Florida
The Miccosukee Tribe of Indians of Florida (Tribe) is a
federally recognized tribe of Indians. The Tribe's
members ratified and adopted its constitution on
December 17, 1961, and it was approved by the
Department of the Interior (DOI) on January 11, 1962.
The constitution vests power and authority in the
Miccosukee General Council (General Council), which
includes all enrolled tribal members who are at least
18 years of age. The General Council has four “Regular
General Council Meetings” each year on the first
Saturday of February, June, August, and November.
Meetings of the General Council other than Regular
General Council Meetings are called “Special General
Council Meetings”. Meetings of the General Council
Sixteen related cases are bound by the outcome of these cases
with respect to the taxability of the distributions. Those cases
have been docketed under these numbers: 15157-10, 11729-11,
11750-11, 13105-11, 26196-11, 2805-12, 20038-12, 3157-13, 807513, 20287-13, 22976-13, 25476-13, 25815-13, 26518-13, 26748-13,
and 27734-13.
2

14a
are recorded, transcribed, and approved by the General
Council at the next meeting.
The Business Council controls the day-to-day
operations of the Tribe, subject to the General Council's
approval. The Business Council has five members, each
elected to a four-year term by the General Council: the
chairman, the assistant chairman, the secretary, the
treasurer, and the lawmaker. The Business Council
meets regularly, and the chairman only votes in the
case of a tie. Billy Cypress served as chairman from
1987 through 2009 and was elected chairman again in
2016. As a function of his position as chairman of the
Tribe, Mr. Cypress also acted as the Bureau of Indian
Affairs (BIA) superintendent of the Tribe. The Tribe's
primary operating bank account is its general account.
All revenues not specifically allocated to another tribal
account are deposited into this account, and the Tribe
pays general operating expenses and capital
improvement costs, among other expenses, from it.
A. Tribal Sales Tax
The General Council enacted a tribal sales tax on
November 7, 1984. It was approved by the DOI on
December 13, 1984. It applied to sales of goods and
services or lease rentals by any business operating on
the Tribe's reservation; these include a gas station, a
gift shop, a restaurant, a tourist village, and an air boat
tour business. The tax was passed on to customers and
was reflected on the customers' receipts. The small
businesses were only modestly profitable, and the
tribal sales tax collected was used primarily to pay for
trash pickup. The Tribe deposited the tribal sales tax
revenue into a separate tribal bank account, not its
general account. The Tribe distributed tribal sales tax

15a
revenue to its members only once; each member
received about $ 100.
B. The Tribe's Casino
On April 7, 1989, the Tribe entered into a contract with
Tamiami Development Corp. (TDC) to construct,
manage, and operate a Class II gaming facility for the
Tribe called Miccosukee Indian Bingo and Gaming
(Casino). The agreement, which was later assigned to
Tamiami Partners, Ltd. (TLP), was approved by the
DOI. TDC built the Casino on land it purchased outside
but adjacent to the Tribe's reservation land. The
purchased land was placed into trust for the Tribe. The
Tribe has never allotted any of its lands to tribal
members.
The Tribe has conducted gaming activities at the
Casino since September 15, 1990. The General Council
created the Miccosukee Tribal Gaming Authority on
August 9, 1991. The Tribe's relationship with TLP
ended amid dispute and litigation, and the Tribe has
operated the Casino under the supervision of the
Miccosukee Tribal Gaming Authority since October 13,
1993. It now owns and controls the Casino.
After receiving land and cash as part of a 1996
settlement with the State of Florida, the Tribe built a
parking lot on a six-acre portion contiguous to the land
on which the Casino is located. The parking lot is free
for patrons of the Casino. The Tribe also owns and
operates several enterprises related to the Casino,
including a hotel, a concert hall, a food court, a
restaurant, and a gift shop. The Casino and its related
enterprises operate on a fiscal year ending on June 30
of each year.

16a
C. Taxation of the Casino
The Tribe agreed to waive taxes on the Casino's gross
revenue until TLP recouped its investment, and the
Tribe imposed no taxes on the Casino from its opening
in 1990 until 1995. Effective January 1, 1995, the
General Council imposed a 6.5% gross receipts tax on
any amount received by the Casino, including wagers,
admission fees, and the sales revenue of the Casino's
related enterprises. The gross receipts tax is treated as
an above-the-line expense of the Casino and its related
enterprises. The Casino must estimate its gross
receipts for each month on the last day of each month
and pay the Tribe at least 90% of the tax on these gross
receipts for that month using its estimate. The Casino
then has 15 days after the end of the month to calculate
the actual gross receipts and gross receipts tax for that
month; and if the actual gross receipts tax exceeds
what the Casino previously paid, it must pay that
excess. The Casino receives a credit against future
gross receipts tax if its estimate is greater than the
actual gross receipts tax.
On February 27, 1995, after operations of the Casino
were under the Tribe's control, Mr. Cypress directed
the Tribe's finance director, Mike Hernandez, to open a
checking account, called the nontaxable distribution
revenue (NTDR) account, into which the Tribe would
deposit the gross receipts tax revenue. Mr. Hernandez
opened the NTDR account shortly thereafter, and the
Tribe has deposited the gross receipts tax revenue into
that account ever since. Most of the funds in the NTDR
account came from the Casino although revenue from
the Tribe's small businesses and land leases and
easements was deposited there as well. What remained
of the Casino's profits--after paying the gross receipts

17a
tax and other expenses--was deposited into the Tribe's
general account.
D. Distributions
The Tribe has made quarterly per capita distributions
since at least 1989. Until 1995 the Tribe distributed
funds to its members from its general account. The
largest sources of this revenue were the Tribe's small
businesses, land leases for cattle grazing, hunting
camps, pipelines, and cell towers. Distributions made
before the opening of the Casino were around $ 100 per
member per quarter. The distributions grew
considerably with the Casino's success.
The Tribe has made quarterly distributions to its
members from the NTDR account since it was opened
in 1995. The date of the quarterly distributions and the
number of enrolled members is set at General Council
meetings. Only enrolled members of the Tribe can
participate in General Council meetings and receive
distributions. One must have at least one Miccosukee
parent to be an enrolled member in the Tribe. The
amount of the distributions each quarter is determined
by dividing the gross receipts tax revenue for that
quarter by the number of enrolled members.
Distributions to minor children generally go to their
tribal member mother because the Tribe is matrilineal-membership in a clan within the Tribe is determined
by a tribal member's mother--and the mother is
generally the head of the household. The father
generally receives only his distribution. The Tribe may
deduct certain amounts from a member's quarterly
distribution upon request or if the member participates
in one of the Tribe's loan programs. The quarterly

18a
distributions to a tribal member for the years at issue-2004, 2005, and 2006--were as follows:
Quarter
First

2004

2005

2006

$ 22,000 $ 27,500 $ 36,000

Second

23,000

32,000

40,000

Third

26,900

33,500

40,700

Fourth

27,600

33,500

41,700

Members could cash their distribution checks at any
bank or at the tribal administration building for a 1%
fee. At the encouragement of Mr. Cypress, most
members chose to cash their quarterly distribution
checks at the tribal administration building. The Tribe
also opened investment accounts for its members with
Smith Barney. These accounts allowed members to
avoid certain requirements imposed on financial
institutions while investing their otherwise idle cash
and made it easier to make payments on large
purchases, such as cars. Not every member chose to
open a Smith Barney account. Those who did could
request to have a portion of their quarterly
distributions deposited into their Smith Barney
accounts.
The Tribe also has paid its members Christmas
bonuses since at least 2002. Christmas bonuses were
paid from the Tribe's general account through 2005.
The Tribe began paying Christmas bonuses from the
NTDR account in 2006 because it was concerned that
it would have to issue tax forms for distributions to
members from the general account. The gross receipts
tax rate was increased to 8% in 2006 to fund Christmas
bonuses. The Christmas bonuses for 2004, 2005, and
2006 were $ 5,500, $ 6,000, and $ 7,000, respectively.

19a
E. The Tribe's Tax Position
The Tribe has maintained since 1995 that its
distributions are not taxable to members and need not
be reported on their income tax returns. In a
memorandum dated January 24, 1995, Mr. Cypress
advised Mr. Hernandez that the tribal attorney has
assured him that the distributions should not be
reported on members' tax returns. Mr. Cypress
continued that “I expect you, and your staff, to prepare
tax returns for the members of the Tribe in accordance
with, and relying on, our attorney's opinion.” From
1995 through 2007 Mr. Cypress encouraged tribal
members to cash their quarterly distribution checks at
the tribal administration office and to omit quarterly
distributions from credit applications to avoid inviting
scrutiny from the Internal Revenue Service (IRS). He
told the General Council that the tribal administration
office denies knowledge of the quarterly distributions
when lenders call to verify them. During a Special
General Counsel Meeting on February 6, 2003, Mr.
Cypress was recorded in meeting minutes as stating
the following:
Business Council has repeatedly asked that they
do not claim the NTDR money as income on the
credit applications but tribal members continue
to do this. By doing this, tribal members run the
risk of eventually having IRS problems. They
(IRS) will see the money reported on their credit
applications and start to tax them on it. The tribe
has this money categorized as a license tax item
in order to avoid IRS problems for tribal
members. But with the actions of tribal members,
this is being compromised.

20a
The minutes go on to state that
Chairman
Cypress
explained
how
the
distribution was set up to avoid the
government/IRS taxing us on the funds. Our
plans for the distribution were set up when we
started the gaming operation. These plans were
sent to BIA for their review and were approved
by the Department of Interior. If these monies
were classified as per capita payment to tribal
members then IRS could tax us but we do not
classify it as such. But due to the actions of
maybe two or three tribal members, all tribal
members could be affected.
The minutes for this meeting also record the following
comments by another tribal officer, Assistant
Chairman Jasper Nelson: “When tribal members are
asked to not divulge NTDR money, it is for their own
good. He stated by doing this, it will give IRS the
opportunity to find out about the money and tax us on
it. This would jeopardize the livelihood of tribal
members who depend on this money.”
Minutes of a Special General Council Meeting on
February 10, 2005, record Mr. Cypress stating that
there are members who share information with
non-Indians about the money they receive from
the Tribe. The consequences these members are
faced with as well as putting the rest of the Tribe
in this predicament, they cannot blame anyone
but themselves as these are the reason why we
repeatedly stressed to tribal members to keep
information to themselves.

21a
In several General Council meetings in 1999, 2003, and
2006, Mr. Cypress and the Tribe's legal counsel, Dexter
Lehtinen, also discussed the tax treatment of the
neighboring Seminole tribe's distributions. They
warned that the Tribe would be required to withhold
tax on its distributions, like the Seminoles, if tribal
members did not follow their directions. But in one
General Council meeting in 2006, Mr. Cypress and Mr.
Lehtinen distinguished the Tribe's distribution scheme
from the Seminoles', explaining that the Seminoles'
distributions were taxed because they were from net
profits while the Tribe's distributions were nontaxable
because they were from the gross receipts tax.
The Tribe requested a legal opinion in 2003 from its
outside counsel, White & Case, on the taxability of the
Tribe's distributions to its members and on the Tribe's
compliance with the Indian Gaming Regulatory Act of
1988 (IGRA), Pub. L. No. 100-497, 102 Stat.
2467 (codified at 25 U.S.C. secs. 2701-2721 (2012) ).
This opinion stated that the distributions are taxable
to tribal members. The Tribe opened a reserve account
at or near the commencement of an IRS audit of the
Tribe and the Casino around 2005. This reserve
account was meant to prepare for the possibility that
the Tribe would be required to make a payment to the
IRS as part of a settlement on behalf of the Tribe
relating to compliance with the IGRA or members
relating to taxes on distributions.
II. Petitioners' Distributions and Income Tax Returns
Ms. Osceola grew up on the reservation and went to
elementary school there but stopped attending school
after fifth grade. She was employed by several
businesses around the reservation but had not been

22a
employed for over 20 years as of the time of trial. Mr.
Clay grew up in a village outside the reservation. He
never attended school and only became an enrolled
member of the Tribe in 2005 to secure medical care for
his mother. Petitioners speak Miccosukee as their
primary language and testified at trial with the help of
an interpreter.
Petitioners received quarterly distributions for each of
the years at issue determined by the number of
enrolled members in their family. Ms. Osceola received
her distributions as well as those of her dependent
children. Her net distributions after deductions for
housing and loan repayment--during the years in issue-were as follows:
Distribution
First quarter

2004

2005

$ 131,850 $ 128,400

2006
$ 215,700

Second quarter

128,020

181,030

239,700

Third quarter

123,530

200,700

243,900

Fourth quarter

128,900

200,700

249,900

Christmas bonus

27,500

36,000

42,000

Ms. Osceola cashed her distribution checks at the tribal
administration office during the years in issue. She did
not give each of her children their distributions after
collecting them; rather, she kept them and spent them
on family expenses as she determined necessary. In
addition to the distributions, Ms. Osceola received a
miscellaneous payment from the Tribe of $ 1,295 in

23a
2006.3 The Tribe made this payment out of the general
account.
Mr. Clay did not receive distributions until he became
an enrolled member of the Tribe in the second quarter
of 2005. Mr. Clay received net distributions during the
years at issue in the following amounts:
Distribution

2005

First quarter

---

Second quarter

2006
$ 36,000

$ 32,000

40,000

Third quarter

33,500

40,700

Fourth quarter

33,500

41,700

Christmas bonus

6,000

7,000

Petitioners were married during the years at issue, and
they filed a joint Form 1040, U.S. Individual Income
Tax Return, for each of those years. Omar Barrera, an
accountant in Gainesville, Florida, prepared
petitioners' Forms 1040 for the years in issue.
Petitioners reported five of their children as
dependents for each of the years in issue for a total of
seven exemptions. None of their dependent children
filed income tax returns for the years at issue.
Petitioners provided Mr. Barrera with Forms W-2G,
Certain Gambling Winnings, for the years in issue for
purposes of preparing their Forms 1040 and reported
gaming income and losses on their Form 1040 for each
year. However, petitioners did not report their
quarterly distributions or Christmas bonuses on their
As a result of an error, respondent determined the deficiency for
tax year 2006 after including a miscellaneous payment of $ 1,200
in the notice of deficiency rather than one of $ 1,295. Respondent
concedes the $ 95 that was omitted in the notice of deficiency.
3

24a
Forms 1040 for the years in issue. Petitioners never
disclosed their quarterly distributions or Christmas
bonuses to Mr. Barrera, and he never advised them on
the taxability of their distributions.
III. IRS Audit of Petitioners' Returns
In 2010 the IRS audited dozens of returns filed by
members of the Tribe who received distributions, in
addition to petitioners.4 On or before August 4, 2010,
Supervisory Revenue Agent Anita D. Gentry prepared
a memorandum regarding the “Miccosukee Project”
giving preliminary approval for accuracy-related
penalties for substantial understatements of income
tax in cases developed for members of the Tribe, to be
placed behind penalty workpapers in each case file. On
September 13, 2010, the agent examining petitioners'
returns sent them a revenue agent report (RAR), Form
4549-A, Income Tax Discrepancy Adjustments,
containing proposed adjustments for 2004 and 2005,
along with Form 872, Consent to Extend the Time to
Assess Tax. While the record does not include a final
copy of what was sent to petitioners (respondent states
that the RAR is included as part of the notice of
deficiency), the agent's notes indicate that there was a
“30-day letter” giving petitioners the option to file a
protest and request a conference before the IRS Office
of Appeals (Appeals) within 30 days.5

As we explain infra Section IV, we are reopening the record to
include certain exhibits relevant to respondent's penalty
determination.
4

The examining officer's activity record entry for October 18,
2010, after the expiration of the 30-day period, states: “Prepared
case to send to review. Printed work papers, unagreed report and
5

25a
On October 18, 2010, the agent sent the case to Ms.
Gentry for review. Ms. Gentry spent between 5 and 15
minutes reviewing the case before approving the
penalties that day. A Civil Penalty Approval Form
dated August 22, 2010, and bearing the typewritten
initials “AG” dated October 18, 2010, indicates that
“Substantial Understatement” and “Other Accuracy
Related” penalties were approved for 2004 and 2005.
“Negligence” penalties were not approved for those
years. Ms. Gentry based her review on an August 9,
2010, memorandum and calculations prepared by the
agent recommending application of the six-year statute
of
limitations
under section
6501(e) (because
petitioners omitted more than 25% of their income),
and photocopies of distribution checks to petitioners.
Respondent issued a notice of deficiency to petitioners
on March 14, 2011, determining deficiencies and
penalties
for
negligence
and
substantial
understatement of tax for tax years 2004 and 2005.
Respondent issued a second notice of deficiency on
January 10, 2013, determining deficiencies and
penalties
for
negligence
and
substantial
understatement for tax year 2006.
OPINION
I. Burden of Proof
Ordinarily, the burden of proof in cases before the
Court is on the taxpayer. Rule 142(a)(1); Welch v.
Helvering, 290 U.S. 111, 115, 54 S.Ct. 8, 78 L.Ed. 212
(1933). Under section 7491(a), in certain circumstances
the burden of proof may shift from the taxpayer to the
90 day 886A”. And the entry for March 11, 2011, states in part:
“No protest. SND needs to be prepared for 2004 and 2005.”

26a
Commissioner. Petitioners have not claimed or shown
that they meet the specifications of section 7491(a) to
shift the burden of proof to respondent as to any
relevant factual issue.
II. Posttrial Briefing Issues6
A. Respondent's Motion To Strike
Rule 52 provides that the Court can strike from any
brief “any insufficient claim or defense or any
redundant, immaterial, impertinent, frivolous, or
scandalous matter.” Respondent requests that we
strike from petitioners' simultaneous reply brief
arguments relating to: (1) the “General Welfare
Doctrine” because petitioners conceded this issue
before trial;7 (2) the Per Capita Act of 1983, Pub. L. No.
We address each of petitioners' and respondent's motions to
reopen the record with respect to our decision in Graev v.
Commissioner (Graev III), 149 T.C. 485 (2017), supplementing
and overruling in part Graev v. Commissioner (Graev II), 147 T.C.
460 (2016) infra Section IV.
6

We will use the term the “General Welfare Doctrine” as
shorthand for arguments relating to Rev. Rul. 2005-46, 2005-2
C.B. 120; Rev. Proc. 2014-35, 2014-26 I.R.B. 1110 (applicable in
tax years for which the period of limitations under sec. 6511 had
not expired); and the Tribal General Welfare Exclusion Act of
2014, Pub. L. No. 113-168, sec. 2(a), 128 Stat. at 1883 (codified as
amended at sec. 139E, and applicable in tax years for which the
period of limitations under sec. 6511 had not expired.) Tribal
General Welfare Exclusion Act, sec. 2(d)(1), 128 Stat. at 1884.
7

Sec. 139E(a) provides that gross income does not include the value
of any Indian general welfare benefit. Indian general welfare
benefits include payments to and services provided to or on behalf
of a member of an Indian tribe pursuant to an Indian tribal
program. Sec. 139E(b). However, the income is only excluded if (1)
the program is administered under specific guidelines and does

27a
98-64, 97 Stat. 365 (codified at 25 U.S.C. secs. 117a117c (2012) ) and the Indian Land Consolidation
Act, Pub. L. No. 97-459, sec. 211, 96 Stat. at 2519
(codified at 25 U.S.C. sec. 2210 (2012) ), because
petitioners abandoned these arguments by omitting
them from their opening brief; and (3) two documents
petitioners rely on in support of their proposed findings
and argument, because they were not in evidence.
Motions to strike are generally disfavored by Federal
courts. Estate of Jephson v. Commissioner, 81 T.C.
999, 1001 (1983); Allen v. Commissioner, 71 T.C. 577,
579 (1979). “A motion to strike should be granted only
when the allegations have no possible relation to the
controversy. When the court is in doubt whether under
any contingency the matter may raise an issue, the
motion should be denied.” Estate of Jephson v.
Commissioner, 81 T.C. at 1001 (quoting Samuel
Goldwyn, Inc. v. United Artists Corp., 35 F.Supp. 633,
637 (S.D.N.Y. 1940) ). In addition, if “the subject of the
motion involves disputed and substantial questions of
law, the motion should be denied and the allegations
should be determined on the merits.” Id. And “a motion
to strike will usually not be granted unless there is a
showing of prejudice to the moving party.” Id.; see
also Pony Creek Cattle Co. v. Great Atl. & Pac. Tea Co.
(In re Beef Industry Antitrust Litigation), 600 F.2d
1148, 1168-1169 (5th Cir. 1979) (“[U]nnecessary
evidentiary details are usually not stricken from the

not discriminate in favor of tribal leadership and (2) the benefits
are available to any member who meets the guidelines, are for the
promotion of general welfare, are not lavish or extravagant, and
are not compensation for services. Id.

28a
complaint unless prejudicial or of no consequence to the
controversy[.]”).
1. Issues Included in the Stipulation of Settled
Issues
Our Rules require parties “to stipulate, to the fullest
extent to which complete or qualified agreement can or
fairly should be reached, all matters not privileged
which are relevant to the pending case, regardless of
whether such matters involve fact or opinion or the
application of law to fact.” Rule 91(a)(1). Before trial
the parties filed a stipulation of settled issues stating
that “petitioners concede that the quarterly and
Christmas distributions at issue in this case are not
tax-exempt general welfare payments as described
in Rev. Rul. 2005-46, 2005-2 C.B. 120; Rev. Proc. 201435, 2014-26 I.R.B. 1110; or I.R.C. § 139E.” Our Rules
are explicit about the binding nature of stipulations. “A
stipulation shall be treated * * * as a conclusive
admission by the parties to the stipulation, unless
otherwise permitted by the Court or agreed upon by
those parties.” Rule 91(e); see also Enis v.
Commissioner, T.C. Memo. 2017-222, at *4, n.3. “The
Court will not permit a party to a stipulation to qualify,
change, or contradict a stipulation in whole or in part,
except that it may do so where justice requires.” Rule
91(e); Bail Bonds by Marvin Nelson, Inc. v.
Commissioner, 820 F.2d 1543, 1547 (9th Cir. 1987) (“A
stipulation will generally be enforced unless manifest
injustice would result.”), aff'g T.C. Memo. 1986-23.
Petitioners have not shown any reason why we should
release them from their stipulation. This is not a
circumstance of a stipulated fact's being contradicted
by other facts in the record. See, e.g., Jasionowski v.

29a
Commissioner, 66 T.C. 312 (1976). Rather this was a
strategic decision before trial not to pursue an
argument that then shaped the parties' trial
presentations. In fact, counsel for petitioners even used
the stipulation as a basis for objecting to questions
asked by respondent's counsel, stating at trial that
“this is not a general welfare case.” It would be
prejudicial to allow petitioners to duck questions at
trial about an issue on the basis that they have
abandoned it, only to revive the dispute on
brief. However, as we discuss infra Section III.A, we
are not the first court to consider this issue. The U.S.
Court of Appeals for the Eleventh Circuit, to which
these cases are appealable absent stipulation to the
contrary, see sec. 7482(b), has ruled that section
139E does not provide a tax exemption for
the distributions, see United States v. Jim, 891 F.3d
1242
(11th
Cir.
2018); see
also Golsen
v.
Commissioner, 54 T.C. 742, 756-757 (1970), aff'd, 445
F.2d 985 (10th Cir. 1971). Whether we deem
petitioners to have abandoned the argument, strike the
argument, or decide it on its merits following the U.S.
Court of Appeals for the Eleventh Circuit, their
argument is unavailing. We therefore will deny
respondent's motion as to this issue and reject it on its
merits.
2. Issues Not Raised in Petitioners' Opening Brief
We may consider an issue raised for the first time in a
party's answering brief to be abandoned and
conceded. See Dutton v. Commissioner, 122 T.C. 133,
142 (2004) (“Our practice is not to consider new issues
raised for the first time in an answering
brief.”); Krause v. Commissioner, 99 T.C. 132, 177
(1992), aff'd sub nom. Hildebrand v. Commissioner, 28

30a
F.3d 1024 (10th Cir. 1994). Petitioners did not raise the
Per Capita Act of 1983 in their pretrial memorandum,
at trial, or in their opening brief and, while they raised
the Indian Land Consolidation Act in their pretrial
memorandum, they did not raise it again until their
reply brief. We therefore could deem petitioners to have
abandoned arguments based on the Per Capita Act of
1983
and
the
Indian
Land
Consolidation
Act. See Dutton v. Commissioner, 122 T.C. at
142; Krause v. Commissioner, 99 T.C. at 177. However,
as we explain infra Section III. B and C, they do not
provide a tax exemption for the distributions. We
therefore will deny as moot respondent's motion as to
these arguments.
3. Documents Not in Evidence
Petitioners rely on two documents not in evidence in
their opening and reply briefs: a 1989 contract between
the Tribe and TDC and a 1995 letter from the Tribe to
the BIA's acting director, Frank Keel. Tacitly
conceding that they cannot rely on facts not in
evidence, petitioners counter respondent's motion to
strike these two documents and petitioners' arguments
based on them by moving to reopen the record to admit
them into evidence. They argue that these documents
should be admitted to “clarify and confirm testimonial
evidence received by the Court at trial” and respond to
issues raised by respondent in his opening brief.
The decision to reopen the record to admit additional
evidence is within our broad discretion. Zenith Radio
Corp. v. Hazeltine Research, Inc., 401 U.S. 321, 331332, 91 S.Ct. 795, 28 L.Ed.2d 77 (1971); Butler v.
Commissioner,
114
T.C.
276,
286-287
(2000), abrogated on other grounds, Porter v.

31a
Commissioner, 132 T.C. 203 (2009); see also SEC v.
Rogers,
790
F.2d
1450,
1460
(9th
Cir.
1986) (citing Zenith Radio Corp., 401 U.S. at 332, 91
S.Ct. 795), overruled on other grounds, Pinter v. Dahl,
486 U.S. 622, 108 S.Ct. 2063, 100 L.Ed.2d 658 (1988).
The Court of Appeals for the Eleventh Circuit considers
four factors in determining whether to reopen the
record: (1) the timeliness of the motion to reopen the
record, (2) the character of the testimony to be offered,
(3) the effect of granting the motion to reopen to record,
and (4) the reasonableness of the request to reopen the
record. United States v. Byrd, 403 F.3d 1278, 1284
(11th Cir. 2005); Dynamo Holdings Ltd. P'ship v.
Commissioner, 150 T.C. ––––, –––– – ––––, 2018 WL
2106443 *3–4 (May 7, 2018).
The third factor--the effect of reopening the record--is
most relevant here. We will not reopen the record to
admit these documents because we find that they are
cumulative and would not change the outcome of the
case. They do not bear on the outcome of either of the
issues in this case: whether the distributions are
taxable to petitioners and whether petitioners are
liable for accuracy-related penalties. Therefore we will
deny petitioners' motion to reopen the record to admit
these two documents and will grant respondent's
motion to strike those portions of petitioners' brief that
rely on them.8
In violation of Rule 151(e)(3), petitioners' opening brief does not
cite, in support of their proposed findings of fact, any evidence that
was admitted. This is surprising especially because at the end of
trial we discussed posttrial briefs with the parties. Nor did their
reply brief comply with our Rules. Thus, these posttrial briefing
issues appear to be part of a pattern of disregarding our Rules.
Lack of familiarity with this Court and lack of resources are
8

32a
B. Petitioners' Motion To Amend the First Stipulation
of Facts
Petitioners also move to amend four paragraphs of the
first stipulation of facts to correct what they contend
are factual errors. We may amend a stipulation when
“to accept * * * [the unamended stipulation] would have
been manifestly unjust or if the evidence contrary to
the stipulation was substantial.” Loftin & Woodard,
Inc. v. United States, 577 F.2d 1206, 1232 (5th Cir.
1978); see Rule
91(e).
Petitioners'
proposed
amendments are belated wording tweaks to bolster
their posttrial arguments and do not change our
conclusions on the legal issues before us. In addition,
petitioners have not identified any manifest injustice
or substantial evidence that contradicts the
stipulations they seek to amend. Therefore, we will
deny their motion to amend the first stipulation of
facts.
III. Taxability of Distributions to Tribal Members
Section 61 provides that “gross income means all
income from whatever source derived” unless an
exception is provided. The Supreme Court stated that
gross income comprises all “accessions to wealth,
clearly realized, and over which the taxpayers have
unappealing excuses for failure to read and comply with our Rules
and are no excuse for failure to heed discussions with the Court
on the record with a transcript to remind the parties of those
discussions. Brewer Quality Homes, Inc. v. Commissioner, T.C.
Memo. 2003-200, 2003 WL 21545886, at *1 n.3 (“[Petitioners']
counsel is put on notice that (1) the Rule is designed both to
facilitate the work of the Court and also to provide a ‘level playing
field’ to the parties, and (2) the Court will be inclined to impose
formal
sanctions
in
the
event
of
future
similar
violations.”), aff'd, 122 F. App'x 88 (5th Cir. 2004).

33a
complete dominion.” Commissioner v. Glenshaw Glass
Co., 348 U.S. 426, 431, 75 S.Ct. 473, 99 L.Ed. 483
(1955). Individual tribal members are subject to
Federal income taxation unless a treaty or an Act of
Congress provides an exemption. Squire v. Capoeman,
351 U.S. 1, 6, 76 S.Ct. 611, 100 L.Ed. 883 (1956). An
exemption from income tax must be clearly
expressed. Id.; Holt v. Commissioner, 44 T.C. 686, 690
(1965), aff'd, 364 F.2d 38 (8th Cir. 1966). We cannot
create a tax exemption by implication. Hoptowit v.
Commissioner, 78 T.C. 137, 142 (1982), aff'd, 709 F.2d
564 (9th Cir. 1983); Jourdain v. Commissioner, 71 T.C.
980, 990 (1979), aff'd, 617 F.2d 507 (8th Cir. 1980).
The parties first dispute whether the distributions are
made from net gaming revenues taxable under the
IGRA. The IGRA provides that as a condition of
making per capita payments to tribal members out of
net gaming revenues from a Class II gaming facility,
“the per capita payments are subject to Federal
taxation and tribes notify members of such tax liability
when payments are made.” 25 U.S.C. sec.
2710(b)(3)(D). Petitioners argue that the distributions
are from leases of land (and also, as noted above, that
they are exempt from tax under the General Welfare
Doctrine). Irrespective of whether the distributions
come from net gaming revenues or leasing revenues, if
petitioners can identify no exception from gross
income, then they are taxable. We do not find any real
dispute between the parties on the facts, although the
parties strongly disagree over how to characterize the
source of these distributions.

34a
A. IGRA
We are not the first court to consider petitioners'
arguments that the distributions are not net gaming
revenues and that the General Welfare Doctrine
exempts them from taxation.9 The U.S. Court of
Appeals for the Eleventh Circuit recently ruled on a
case regarding the taxability of distributions to another
member of the Miccosukee Tribe, Sally Jim. Jim, 891
F.3d 1242. In that case, the Government moved for
summary judgment that the distributions to Ms. Jim,
which were derived from gaming proceeds, were not
exempt from taxation as general welfare payments or
income from the land. United States v. Jim, No. 1422441, 2016 WL 6995455 (S.D. Fla. Aug. 19, 2016). The
Tribe intervened.
The District Court granted the Government's summary
judgment motion in part but held that material
disputes of fact remained over how much of the
distribution was from nongaming revenue and whether
Ms. Jim was taxable on the entire distribution,
including the amounts she received that were
attributable to her family members. After a bench trial,
the court concluded that no exemption applied to the
income. Id.
On appeal, the Court of Appeals affirmed that section
139E does not exempt per capita payments from
gaming revenue designated as taxable by the
IGRA. Jim, 891 F.3d 1242. It also rejected the
argument that the distributions were out of gross
revenue, not net revenue, and therefore were not
As noted above, before trial, petitioners conceded that the
distributions were not general welfare payments.
9

35a
subject to the IGRA.10 Id. at 1250 n.17. And it quickly
rejected the argument that the distributions were
exempted from tax by the Miccosukee Settlement Act
of 1997 (Miccosukee Settlement Act), Pub. L. 10583, sec. 707(c), 111 Stat. at 1624 (codified at 25 U.S.C.
secs. 1750-1750e(c) (2006) ). Jim, 891 F.3d at 1250
n.17.
We see no factual distinctions between the
distributions to petitioners and to Ms. Jim and
therefore hold that the distributions to petitioners are
taxable under the IGRA.
B. Petitioners' Other Statutory Arguments
Petitioners made other arguments that were not
considered (or were considered only briefly) by the
Court of Appeals. Petitioners point to three Acts of
Congress that they maintain exempt the Tribe's
distributions from Federal income taxation: the
Miccosukee Settlement Act; the Act of Oct. 17,
1975, Pub. L. No. 94-114, sec. 6, 89 Stat. at 579
(codified at 25 U.S.C. sec. 459e (2006) );11 and the
Even accepting petitioners' claim that the gross receipts tax is
a continuation of the tribal sales tax adopted in 1984, as the Court
of Appeals concluded, the gross receipts tax still is a mechanism
for collecting gaming revenue from the Casino to fund per capita
distributions to members eligible for no other exception to the
definition of gross income, as we explain below. See United States
v. Jim, 891 F.3d 1242, 1250 n.17 (11th Cir. 2015). We similarly
reject petitioners' argument that distributions are not taxable
because they were not out of net gaming revenue but rather were
out of gross revenue.
10

25 U.S.C. sec. 459e has been reclassified as sec. 5506 of the same
title.
11

36a
Indian Land Consolidation Act.12 None of these
provisions would exempt the distributions from the
IGRA. And even were we to conclude that the
distributions were not out of net gaming revenue, none
of those provisions apply to the land on which the
Casino is located and, therefore, none exempt the
distributions from Federal income tax.
The Miccosukee Settlement Act is the codification of
the effects of the Tribe's 1996 settlement agreement
with the State of Florida as it relates to the Federal
Government. The Miccosukee Settlement Act sec.
707(c)(1)(A) addresses the tax effects of the settlement
agreement, providing in relevant part that no money or
land paid or conveyed to the Tribe “under this Act or
the Settlement Agreement shall be taxable under
Federal or State law.” Petitioners contend that
Miccosukee Settlement Act sec. 707(c) makes all of the
Tribe's land tax exempt. However, the plain wording of
the provision limits its application to “lands conveyed
to the Miccosukee Tribe under this part or the
Settlement Agreement”. The Casino is not located on
any of the land that the Tribe received in the
settlement agreement. Therefore, the Miccosukee

Petitioners take the position that no agency other than the BIA
has any authority to interpret or apply Federal law, treaties, or
other matters arising out of Indian affairs, including the taxation
of the tribes and their members. Petitioners cite no cases, nor did
we find any support for such a broad interpretation of the
authority given to the BIA by statute. And certainly a statutory
grant of authority to the BIA to interpret the statutes could not
supplant our role or the role of other courts to interpret and apply
these provisions.
12

37a
Settlement Act does not provide an exemption from tax
for petitioners' distributions.13
Petitioners also contend that 25 U.S.C. sec.
459e exempts their distribution from taxation. That
section provides a tax exemption to any land conveyed
pursuant to subchapter IV of title 25, which relates to
the conveyance of submarginal land to Indian
tribes. 25 U.S.C. secs. 459-459e. It provides that any
land conveyed to Indian tribes under that subchapter
and any distribution of gross receipts derived from
those lands are exempt from Federal, State, and local
taxation. Id. sec.
459e.
And 25
U.S.C.
sec.
459a provides a list of the specific properties conveyed
under that subchapter to specific tribes but the Tribe
is not included in that list. Thus, 25 U.S.C. sec.
459e does not apply to the land on which the Casino is
located and does not exempt petitioners' distributions
from tax.
Finally, petitioners contend that the Indian Land
Consolidation Act provides a tax exemption for the
distributions.14 The Indian Land Consolidation Act
allows Indian tribes to enter into a “land consolidation
plan providing for the sale or exchange of any tribal
lands or interest in lands for the purpose of eliminating
undivided fractional interests in Indian trust or
restricted lands or consolidating its tribal land
While the Miccosukee Settlement Act may apply to the land on
which the parking lot is built, the Tribe does not charge a fee for
use of the parking lot so the parking lot does not provide another
revenue source for the distributions.
13

As noted above, petitioners raised this argument only in their
reply brief, and respondent argues petitioners should be deemed
to have abandoned it.
14

38a
holdings”. Id. sec. 2203(a). Title 25 U.S.C. sec.
2210 provides that land or interests in land acquired
by the Federal Government for an Indian or an Indian
tribe as part of a consolidation plan under the Indian
Land Consolidation Act is exempt from Federal, State,
and local taxation. The Casino is located on land
purchased by TDC and placed into trust for the Tribe;
there is no evidence that the land or an interest in the
land was acquired as part of a consolidation plan under
the Indian Land Consolidation Act. Thus, 25 U.S.C.
sec. 2210 does not apply to the Tribe's land and does
not exempt the distributions from tax.
Petitioners are correct that to the extent possible we
resolve ambiguities in treaties and statutes in favor of
Indians and construe Indian treaties in the sense in
which the Indians understood them. See Capoeman,
351 U.S. at 6-7, 76 S.Ct. 611; Choctaw Nation of
Indians v. United States, 318 U.S. 423, 432, 63 S.Ct.
672, 87 L.Ed. 877 (1943). However, this rule of
construction “comes into play only if such statute or
treaty contains language which can reasonably be
construed to confer income exemptions.” Holt v.
Commissioner, 364 F.2d at 40. This is not the case with
the three provisions to which petitioners have pointed.
“We are not free to create, by implication, a tax
exemption
for
petitioner[s].” Hoptowit
v.
Commissioner, 78 T.C. at 142. Furthermore, we do not
agree with petitioners' contention that we must accept
Mr. Cypress' interpretation of these statutes as he was
the BIA Superintendent, regardless of whether or to

39a
what extent he is a delegate of the Secretary of the
Interior.15
C. Distributions Not Directly Derived From the Land
Petitioners next contend that the distributions are
exempt from Federal tax because they are derived
directly from tribal lands. They base this argument
on Capoeman and on the Per Capita Act of 1983 and/or
the Land Consolidation Act (which we addressed
above).16 The Supreme Court held in Capoeman, 351
U.S. at 10, 76 S.Ct. 611, that the General Allotment Act
provided the noncompetent Indian17 taxpayer an
exemption for proceeds directly derived from his
allotted parcel of reservation land--in that case,
proceeds from the sale of standing timber on his
allotment. Here, the Tribe has not made any
Petitioners have not presented any evidence that Mr. Cypress
was delegated any authority by the Secretary of the Interior by
virtue of his position as superintendent. Even if we assume that
the Secretary of the Interior has delegated Mr. Cypress some
authority, we are not bound to his informal interpretations of the
statutes and regulations concerning the Tribe and Indians more
generally. Moreover, his interpretations of these statutes are
contradicted by the statutes' plain meaning, and we do not find
them to be persuasive.
15

Again, this is an argument that petitioners raised only in their
reply brief, and respondent argues petitioners should be deemed
to have abandoned it.
16

A noncompetent Indian, in this context, is a member of a tribe
who received an allotment of land that is held in trust for him or
her by the Federal Government and who, under the terms of
General Allotment Act, was prohibited from alienating or
encumbering the land with the Federal Government's
consent. Hoptowit v. Commissioner, 78 T.C. 137, 138 n.2
(1982), aff'd, 617 F.3d 507 (8th Cir. 1980).
17

40a
allotments of land to its members. See Fry v. United
States, 557 F.2d 646, 648 (9th Cir. 1977); Perkins v.
Commissioner, 150 T.C. ––––, 2018 WL 1146343 *5
(Mar. 1, 2018); Holt v. Commissioner, 44 T.C. at 691.
The Per Capita Act of 1983 permits tribes to make to
members per capita payments of funds held in trust by
the Secretary of the Interior. 25 U.S.C. sec. 117a. Per
capita distributions made under the Per Capita Act of
1983 are exempt from Federal and State tax. Id. sec.
117b(a) (referencing the Act of Oct. 19, 1973, Pub. L.
No. 93-134, sec. 7, 87 Stat. at 468). However, not all per
capita distributions qualify for the Per Capita Act's tax
exemption; the funds must come from approved sources
and be distributed from qualifying accounts. 25 C.F.R.
secs. 115.701-703 (2001). Petitioners argue that the
NTDR account is a qualifying account and the gross
receipts tax revenue is an approved source, specifically
that it was derived directly from tribal lands.
The U.S. Court of Appeals for the Eleventh Circuit
already has concluded that the Tribe's distributions to
members come “from ‘investment in ... improvements’
on the land and ‘business activities related to those
assets,’ namely gambling” and “therefore * * * [do] not
derive directly from the land.” Jim, 891 F.3d at 1250
n.17 (citations omitted; alteration in original). And we
have held that income derived from a business on
reservation land was not necessarily derived directly
from the land. Hoptowit v. Commissioner, 78 T.C. at
145. We have limited our definition of income derived
directly from the land to income earned through
“exploitation of the land itself”. Cross v. Commissioner,
83 T.C. 561, 566 (1984), aff'd sub nom. Dillon v. United
States, 792 F.2d 849 (9th Cir. 1986); see also Stevens
v. Commissioner, 452 F.2d 741 (9th Cir. 1971) (holding

41a
that income from farming and ranching on taxpayer's
allotted land is tax exempt), aff'g in part and rev'g in
part 52 T.C. 330 (1969); Rickard v. Commissioner, 88
T.C. 188, 192 (1987) (holding that farming income on
taxpayer's allotted land is tax exempt).
Our definition does not include income earned by use
of the land along with capital assets and labor. Cross v.
Commissioner, 83 T.C. at 566 (holding that income
from operating a smokeshop on reservation land was
not directly derived from the land); see also Critzer v.
United States, 597 F.2d 708, 713-714 (Ct. Cl.
1979) (holding that neither income from operation of a
motel, restaurant, gift shop, and apartment complex
nor income from leases of buildings is directly derived
from the land); Hoptowit v. Commissioner, 78 T.C. at
145 (holding that income from operating a smokeshop
on reservation land was not directly derived from the
land); Beck v. Commissioner, T.C. Memo. 1994122 (holding that rental income from an apartment
complex on tribal land is not derived directly from the
land), aff'd, 64 F.3d 655 (4th Cir. 1995); Tonasket v.
Commissioner, T.C. Memo. 1985-365 (holding that
income from operating a smokeshop on the taxpayer's
allotted land was not directly derived from the land).
We also have held that per capita payments of casino
revenue are not directly derived from the land merely
by virtue of the casino's location on tribal
land. Doxtator v. Commissioner, T.C. Memo. 2005-113,
2005 WL 1163978, at *9; Campbell v. Commissioner,
T.C. Memo. 1997-502, 1997 WL 690178, at *4 (holding
that income from the operation of a casino on tribal
land was not derived directly from the land), aff'd and
remanded, 164 F.3d 1140 (8th Cir. 1999).

42a
Petitioners argue that the distributions are directly
derived from the land because they are, in substance,
their share of rental payments that the Tribe receives
for leasing Tribal land--owned communally by all
members--to the Casino. They cite Rev. Rul. 56-342,
1956-2 C.B. 20, as support for their contention that
their distributions are nontaxable. The revenue ruling
lists “rentals (including crop rentals)” as income the
IRS understands to be exempt as directly derived from
the land under Capoeman. Id. But whether payments “
‘were in fact rent instead of something else paid under
the guise of rent’ * * * is a question of fact to be resolved
on the basis of all the facts and circumstances.” K & K
Veterinary Supply, Inc. v. Commissioner, T.C. Memo.
2013-84, at *26-*27 (quoting Place v. Commissioner, 17
T.C. 199, 203 (1951), aff'd, 199 F.2d 373 (6th Cir.
1952) ).
We are not bound by a revenue ruling, but even if we
found its analysis persuasive, the record does not
support petitioners' recharacterization of the gross
receipts tax as rent payments that fall outside the
IGRA. See Webber v. Commissioner, 144 T.C. 324, 352353 (2015) (“We are not bound by revenue rulings;
under Skidmore, the weight we afford them depends
upon their persuasiveness and the consistency of the
Commissioner's position over time.”). There is no
written lease between the Tribe and the Casino, and
the 1995 gross receipts tax ordinance makes no
mention of a lease or the use of tribal land. Nor have
we found any reference to a lease from the Tribe to the
Casino in any of the General Council meeting minutes
in the record.
To the contrary, the evidence in the record illustrates
the Tribe's intention that the gross receipts tax be a tax

43a
rather than rent payments. The 1995 gross receipts tax
ordinance “declared * * * the intent of the Miccosukee
Tribe of Indians of Florida that the * * * Miccosukee
Indian Bingo & Gaming (MIBG ) * * * shall be subject
to a gross receipts tax.” And if we regard the 1995 gross
receipts tax as an application of the 1984 tribal sales
tax to the Casino, the 1984 ordinance states that the
Tribe is imposing the tax under its authority “to levy
and collect assessments”. In each the Tribe's financial
statements for fiscal years 1995 through 2002, the
gross receipts tax revenue is listed under the section
“Owners Compensation Fees” rather than with the
Tribe's leases. Finally, each of the Casino's financial
statements from fiscal years 1995-1996 through 20052006 states that while the Casino is on the Tribe's land,
“[n]o rental payment is currently required for the use
of such land.”
Petitioners have not shown that they are entitled to a
tax exemption with respect to their distributions.
Petitioners have not introduced any evidence or made
any argument concerning the inclusion of the $ 1,200
miscellaneous payment to Ms. Osceola in 2006 in her
gross income. And none of petitioners' arguments
address the Christmas bonuses for 2004 and 2005,
which were paid out of the Tribe's general account.
Therefore, we also sustain respondent's determination
that the Christmas bonuses and Ms. Osceola's
miscellaneous payment are taxable under section 61.
Concluding that the Tribe's distributions are taxable to
petitioners does not call into question the Tribe's
sovereign authority to impose tax; nor does the Tribe's
sovereign authority affect our analysis of the taxability
of the distributions. That depends on the law and
whether any exceptions to taxability apply.

44a
IV. Underpayment Penalties
Section 6662(a) and (b)(1) and (2) imposes a penalty
equal to 20% of the portion of an underpayment of tax
required to be shown on the return that is attributable
to “negligence or disregard of rules or regulations”
and/or a “substantial understatement of income tax.”
Negligence includes “any failure to make a reasonable
attempt to comply with the provisions of this title”. Sec.
6662(c). An understatement of income tax is a
“substantial understatement” if it exceeds the greater
of 10% of the tax required to be shown on the return or
$ 5,000. Sec. 6662(d). In the notices of deficiency,
respondent determined both the negligence penalty
and the substantial understatement penalty.
The Commissioner bears the burden of production with
respect to an individual taxpayer's liability for a
penalty and is required to present sufficient evidence
showing that the penalty is appropriate. Sec.
7491(c); Higbee v. Commissioner, 116 T.C. 438, 446447 (2001). To meet this burden for the substantial
understatement penalty, the Rule 155 computations
must confirm a substantial understatement. Sec.
7491(c). The Commissioner must also show that he
complied with the procedural requirements of section
6751(b)(1). See sec. 7491(c); Graev v. Commissioner
(Graey III), 149 T.C. 485, 492-493 (2017),
supplementing and overruling in part Graev v.
Commissioner (Graev II), 147 T.C. 460 (2016). Once
the Commissioner meets his burden of production, the
taxpayer bears the burden of proving that the
Commissioner's determination is incorrect. Higbee v.
Commissioner, 116 T.C. at 446-447.

45a
A. Section 6751(b) Motions
Trial of this case was held, and the record was closed,
before the issuance of our Opinion in Graev III. After
the Court's decision in Graev III, we ordered
respondent to file a response addressing the effect
of section 6751(b) on these cases and directing the
Court to any evidence of section 6751(b) supervisory
approval in the record, and petitioners to respond.
Respondent was unable to direct the Court to any
evidence in the record that satisfies his burden of
production with respect to section 6751(b)(1) and filed
a motion to reopen the record to include two Civil
Penalty Approval Forms accompanied by declarations
from Ms. Gentry, one for both the 2004 and 2005 tax
years and one for the 2006 tax year.
Petitioners did not oppose respondent's motion, but in
their response they asked that they be “also given the
opportunity to reopen the record to call witnesses who
prepared and/or signed the declarations and penalty
approval forms, or introduce other evidence bearing on
the validity of such declarations and forms.” They also
raised issues with the documents respondent proffered
in support of his compliance with section 6751(b).
We granted petitioners' request to conduct additional
discovery
regarding
respondent's
compliance
with section 6751(b), including interrogatories. After
that discovery, petitioners moved to reopen the record
to include certain additional documents relating to
respondent's review of the penalties, namely Ms.
Gentry's August 4, 2010, memorandum, the agent's
August 9, 2010, memorandum regarding the six-year
statute of limitations, the agent's activity log, and
respondent's responses to petitioners' interrogatories.

46a
Respondent did not oppose that motion. We therefore
will grant these two motions to reopen the record to
admit evidence pertaining to 2004 and 2005. The
parties also filed a stipulation of settled issues in which
respondent conceded that he could not meet his burden
of production as to the negligence penalty for 2004 and
2005, and that petitioners are not liable for the
accuracy-related penalty for 2006. We therefore will
deny respondent's motion as to evidence relating to
penalty approval for 2006.
B. Petitioners' Section 6751(b) Arguments
Petitioners argue that (1) the supervisory approval for
the 2004 and 2005 substantial understatement
penalties was not timely and (2) the supervisor's review
itself was not meaningful. Section 6751(b)(1) generally
provides that no penalty shall be assessed unless the
Commissioner shows that “the initial determination” of
the assessment was “personally approved (in writing)
by the immediate supervisor of the individual making
such determination”. The U.S. Court of Appeals for the
Second Circuit held in Chai v. Commissioner, 851 F.3d
190, 221 (2d Cir. 2017), aff'g in part, rev'g in part T.C.
Memo. 2015-42, that written approval is required no
later than the issuance of the notice of deficiency rather
than the assessment of the tax. In so holding, the court
noted the ambiguity in the statute, as the IRS cannot
determine an assessment. Id. at 218; see also Graev II,
147 T.C. at 512 (Gustafson, J., dissenting) (“One can
determine whether to make an assessment, but one
cannot ‘determine’ an ‘assessment’.”). Because
Congress enacted section 6751(b) to ensure that
“penalties should only be imposed where appropriate
and not as a bargaining chip”, Chai v. Commissioner,
851 F.3d at 219 (quoting S. Rept. No. 105-174, at

47a
65 (1998), 1998-3 C.B. 537, 601), and because the
taxpayer decides whether to petition the Tax Court
after receiving the notice of deficiency, the court held
that the IRS must obtain supervisory approval no later
than the date the IRS issues the notice of
deficiency, Chai v. Commissioner, 831 F.3d at 221. But
left open was the question we face: whether approval
can come after the agent sends the taxpayer proposed
adjustments that include penalties. In other words,
must an agent secure penalty approval before sending
to the taxpayer written notice that penalties will be
proposed, in this case in the form of a notice of proposed
adjustment that gives the taxpayer right to appeal the
proposed penalties with Appeals.
Petitioners argue that the initial determination of a
penalty is “the first time an IRS official introduced the
penalty into the conversation”. See Graev III, 149 T.C.
at 500, 501 (Lauber, J., concurring). They contend that
the RAR contained the first suggestion of penalties,
making the RAR--and not the notice of deficiency--the
initial determination.
The RAR is the report sent to the taxpayer “indicating
the adjustments to income as reported on the return
and the nature of the adjustments * * * [the revenue
agent] proposes to make.” Branerton Corp. v.
Commissioner, 64 T.C. 191, 194-195 (1975). When a 30day letter is sent, the taxpayer may protest those
adjustments at Appeals and a notice of deficiency may
follow if the taxpayer does not protest the adjustments
(or if the taxpayer and Appeals do not settle). See secs.
601.105(d), 601.106(b), Statement of Procedural Rules.
The notice of deficiency is the means by which the
Commissioner notifies the taxpayer that he has
determined a deficiency. Sec. 6212(a). Once the IRS

48a
determines a deficiency, including any penalties, the
IRS can assess that deficiency unless the taxpayer
timely petitions this Court for redetermination of that
liability. See sec. 6213(a).
The determinations made in a notice of deficiency
typically are based on the adjustments proposed in an
RAR. See Branerton Corp. v. Commissioner, 64 T.C. at
194-195; Globe Tool & Die Mfg. Co. v. Commissioner,
32 T.C. 1139, 1141 (1959) (“[R]espondent sent to
petitioner by registered mail a notice of deficiency
determining deficiencies in income tax for the taxable
years 1951 and 1952. * * * Said determination by
respondent was based on the adjustments contained in
the
revenue
agent's
report[.]”); Fitzner
v.
Commissioner, 31 T.C. 1252, 1255 (1959) (“[I]t is
obvious that petitioner * * * is relying upon the revenue
agent's report of examination upon which respondent
based his determination of deficiency.”). And when
those proposed adjustments are communicated to the
taxpayer formally as part of a communication that
advises the taxpayer that penalties will be proposed
and giving the taxpayer the right to appeal them with
Appeals (via a 30-day letter), the issue of penalties is
officially on the table. See Palmolive Bldg Inv'rs, LLC
v. Commissioner, 152 T.C. ––––, ––––, 2019 WL
994184, *7–9 (Feb. 28, 2019). Therefore, we conclude
that the initial determination for purposes of section
6751(b) was made no later than September 13, 2010,
when respondent issued the RAR to petitioners
proposing adjustments including penalties and gave
them the right to protest those proposed adjustments.
Next we consider when Ms. Gentry approved these
penalties. Respondent does not contend that, nor do we
consider whether, Ms. Gentry's August 4, 2010,

49a
memorandum satisfies his burden; he directed us to
the penalty approval form initialed by Ms. Gentry on
October 18, 2010. We therefore hold that Ms. Gentry
approved the penalty determinations for 2004 and
2005 on October 18, 2010--after the initial
determination of proposed penalties had been
communicated
to
petitioners--and
therefore
supervisory approval was not timely under section
6751(b).
Because we hold that respondent did not timely obtain
written supervisory approval, we need not reach
petitioners' second argument that Ms. Gentry failed to
conduct a meaningful review.
Any contentions we have not addressed we deem
irrelevant, moot, or meritless.
To reflect the foregoing,
Appropriate orders will be issued, and decisions will be
entered under Rule 155.

50a
25 U.S.C. § 2
§ 2. Duties of Commissioner
The Commissioner of Indian Affairs shall, under the direction
of the Secretary of the Interior, and agreeably to such
regulations as the President may prescribe, have the
management of all Indian affairs and of all matters arising out
of Indian relations.

51a
25 U.S.C. § 2701
§ 2701. Findings.
The Congress finds that-(1) numerous Indian tribes have become engaged in or have
licensed gaming activities on Indian lands as a means of
generating tribal governmental revenue;
(2) Federal courts have held that section 81 of this title
requires Secretarial review of management contracts dealing
with Indian gaming, but does not provide standards for
approval of such contracts;
(3) existing Federal law does not provide clear standards or
regulations for the conduct of gaming on Indian lands;
(4) a principal goal of Federal Indian policy is to promote
tribal economic development, tribal self-sufficiency, and
strong tribal government; and
(5) Indian tribes have the exclusive right to regulate gaming
activity on Indian lands if the gaming activity is not
specifically prohibited by Federal law and is conducted within
a State which does not, as a matter of criminal law and public
policy, prohibit such gaming activity.

52a
25 C.F.R. § 162.013
§ 162.013. Who is authorized to consent to a lease?
(a) Indian tribes, adult Indian landowners, and emancipated
minors, may consent to a lease of their land, including
undivided interests in fractionated tracts.
(b) The following individuals or entities may consent on behalf
of an individual Indian landowner:
(1) An adult with legal custody acting on behalf of his or her
minor children;
(2) A guardian, conservator, or other fiduciary appointed by a
court of competent jurisdiction to act on behalf of an
individual Indian landowner;
(3) Any person who is authorized to practice before the
Department of the Interior under 43 CFR 1.3(b) and has been
retained by the Indian landowner for this purpose;
(4) BIA, under the circumstances in paragraph (c) of this
section; or
(5) An adult or legal entity who has been given a written
power of attorney that:
(i) Meets all of the formal requirements of any applicable
law under § 162.014;
(ii) Identifies the attorney-in-fact; and
(iii) Describes the scope of the powers granted, to include
leasing land, and any limits on those powers.

53a
(c) BIA may give written consent to a lease, and that consent
must be counted in the percentage ownership described in §
162.012, on behalf of:
(1) The individual owner if the owner is deceased and the
heirs to, or devisees of, the interest of the deceased owner
have not been determined;
(2) An individual whose whereabouts are unknown to us,
after we make a reasonable attempt to locate the individual;
(3) An individual who is found to be non compos mentis or
determined to be an adult in need of assistance who does not
have a guardian duly appointed by a court of competent
jurisdiction, or an individual under legal disability as defined
in part 115 of this chapter;
(4) An orphaned minor who does not have a guardian duly
appointed by a court of competent jurisdiction;
(5) An individual who has given us a written power of
attorney to lease their land; and
(6) The individual Indian landowners of a fractionated tract
where:
(i) We have given the Indian landowners written notice of
our intent to consent to a lease on their behalf;
(ii) The Indian landowners are unable to agree upon a lease
during a 3 month negotiation period following the notice;
and
(iii) The land is not being used by an Indian landowner
under § 162.005(b)(1).

54a
25 C.F.R. § 162.016
§ 162.016. Will BIA comply with tribal laws in making
lease decisions?
Unless contrary to Federal law, BIA will comply with tribal
laws in making decisions regarding leases, including tribal laws
regulating activities on leased land under tribal jurisdiction,
including, but not limited to, tribal laws relating to land use,
environmental protection, and historic or cultural preservation.

55a
25 C.F.R. § 162.018
§ 162.018. May tribes administer this part on BIA’s behalf?
A tribe or tribal organization may contract or compact under
the Indian Self–Determination and Education Assistance Act
(25 U.S.C. 450f et seq.) to administer any portion of this part
that is not an approval or disapproval of a lease document,
waiver of a requirement for lease approval (including but not
limited to waivers of fair market rental and valuation, bonding,
and insurance), cancellation of a lease, or an appeal.

56a
25 C.F.R. § 162.402
§ 162.402. Is there a model business lease form?
There is no model business lease form because of the need for
flexibility in negotiating and writing business leases; however,
we may:
(a) Provide other guidance, such as checklists and sample
lease provisions, to assist in the lease negotiation process; and
(b) Assist the Indian landowners, upon their request, in
developing appropriate lease provisions or in using tribal
lease forms that conform to the requirements of this part.

57a

25 C.F.R. § 162.420
§ 162.420. How much monetary compensation must be paid
under a business lease of tribal land?
(a) A business lease of tribal land may allow for any payment
amount negotiated by the tribe, and we will defer to the tribe
and not require a valuation if the tribe submits a tribal
authorization expressly stating that it:
(1) Has negotiated compensation satisfactory to the tribe;
(2) Waives valuation; and
(3) Has determined that accepting such negotiated
compensation and waiving valuation is in its best interest.
(b) The tribe may request, in writing, that we determine fair
market rental, in which case we will use a valuation in
accordance with § 162.422. After providing the tribe with the
fair market rental, we will defer to a tribe's decision to allow for
any payment amount negotiated by the tribe.
(c) If the conditions in paragraph (a) or (b) of this section are
not met, we will require that the lease provide for fair market
rental based on a valuation in accordance with § 162.422.

58a
25 C.F.R. § 290.2
§ 290.2. Definitions.
Appropriate Bureau official (ABO) means the Bureau
official with delegated authority to approve tribal
revenue allocation plans.
IGRA means the Indian Gaming Regulatory Act of
1988 (Public Law 100–497) 102 Stat. 2467 dated
October 17, 1988, (Codified at 25 U.S.C. 2701–
2721(1988)) and any amendments.
Indian Tribe means any Indian tribe, band, nation, or
other organized group or community of Indians that
the Secretary recognizes as:
(1) Eligible for the special programs and services
provided by the United States to Indians because of
their status as Indians; and
(2) Having powers of self-government.
Legal incompetent means an individual who is eligible
to participate in a per capita payment and who has
been declared to be under a legal disability, other than
being a minor, by a court of competent jurisdiction,
including tribal justice systems or as established by the
tribe.
Member of an Indian tribe means an individual who
meets the requirements established by applicable
tribal law for enrollment in the tribe and—
(1) Is listed on the tribal rolls of that tribe if such rolls
are kept or

59a
(2) Is recognized as a member by the tribal governing
body if tribal rolls are not kept.
Minor means an individual who is eligible to
participate in a per capita payment and who has not
reached the age of 18 years.
Per capita payment means the distribution of money or
other thing of value to all members of the tribe, or to
identified groups of members, which is paid directly
from the net revenues of any tribal gaming activity.
This definition does not apply to payments which have
been set aside by the tribe for special purposes or
programs, such as payments made for social welfare,
medical assistance, education, housing or other
similar, specifically identified needs.
Resolution means the formal document in which the
tribal governing body expresses its legislative will in
accordance with applicable tribal law.
Secretary means the Secretary of the Interior or his/her
authorized representative.
Superintendent means the official or other designated
representative of the BIA in charge of the field office
which has immediate administrative responsibility for
the affairs of the tribe for which a tribal revenue
allocation plan is prepared.
Tribal governing body means the governing body of an
Indian tribe recognized by the Secretary.

60a
Tribal revenue allocation plan or allocation plan means
the document submitted by an Indian tribe that
provides for distributing net gaming revenues.
You or your means the Indian tribe.

61a
IRS Internal Revenue Manual
4.88.1.4.1 (03-07-2019)
Guidelines for Per Capita Distribution Plans
1. In December 1992, the Department of Interior
issued "Guidelines to Govern the Review and
Approval of Per Capita Distribution Plans"
(Guidelines). The guidelines, revised, effective
April 1, 2014, give the procedures on the
submission, review, and approval of tribal
revenue allocation plans or ordinances for
distributing net revenues from a gaming activity
(Title 25, Chapter 1, Part 290). Under the
guidelines:
A. A tribal revenue allocation plan or
ordinance (allocation plan) specifying the
distribution of net gaming revenues must
be approved by the Department of
Interior if it gives sufficient detail to
determine that it complies with the
Guidelines and IGRA.
B. The tribe must list a percentage
breakdown of the uses for which the tribe
intends to allocate its net gaming
revenues and the allocation plan must
state that the tribe plans to dedicate a
significant portion of its net gaming
revenues to one or more of the purposes in
25 U.S.C. Section 2710(b)(2)(B).
2. The Guidelines define "per capita" payments as
those payments made or distributed to all
members of the tribe or to identifiable groups of

62a
members which are paid directly from the net
revenues of any gaming activity.
3. Per capita payments don’t include benefits for
special purposes or programs, such as social
welfare, medical assistance, or education. Even
if a tribe improperly designates any of these
benefits as per capita payments, it doesn’t
determine their tax status.

